Supreme Court, U.S.
FILED

WAIVER

AUG 2 1 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 21-174
United States District Court for the
Western District of Arkansas
(Respondent)

v.

David Louis Whitehead
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

V I onlyrepresent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Howard University

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed.Waiver in the Supreme . Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

V I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
Date:

08/19/2021

(Type or print) Name

Nathiya Nagendra
ID Mr.

2 Mrs.

0 Ms.

Firm

Howard University Office of General Counsel .

Address

2400 Sixth Street NW Suite 321

City & State
Phone

Washington, DC 20059

202 806 2657

Email

Ei Miss

• Zip
nathiya.nagendra@howard.edu

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

RECEIVED

cc:

David Louis Whitehead
1906 Scott Street
Bossier: LA 71111
daouddavidlouis@yahoo.com

AUG 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

